GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL


                    Recovery Act Report –
              Robert A. Young Federal Building
        Envelope Improvement Construction Project
    Audit of PBS’s Major Construction and Modernization
      Projects Funded by the American Recovery and
                  Reinvestment Act of 2009
              Audit Number A090172/P/R/12003

                      March 8, 2012
Date:           March 8, 2012

Reply to        R. Nicholas Goco
Attn of:        Deputy Assistant Inspector General
                For Real Property Audits (JA-R)

Subject:        Recovery Act Report – Robert A. Young Federal Building Envelope
                Improvement Construction Project
                Audit of PBS’s Major Construction and Modernization Projects Funded by
                the American Recovery and Reinvestment Act of 2009
                Report Number A090172/P/R/12003

To:             Robert A. Peck
                Commissioner, Public Buildings Service (P)


As part of our oversight of the General Services Administration’s (GSA) American
Recovery and Reinvestment Act (Recovery Act) projects, we identified contracting
violations related to the Construction Manager as Constructor (CMc) contract for the
Robert A. Young Federal Building (RAY) envelope 1 improvement project that warrant
your attention. Specifically:

      •   PBS effectively eliminated price competition as an award factor for the
          Construction Phase Services option of this contract;
      •   PBS did not adequately establish price reasonableness for construction phase
          work;
      •   PBS inappropriately increased the maximum order limitation of the underlying
          contract; and
      •   Funding for construction phase work was improperly obligated.

PBS Eliminated Price Competition for Construction Phase Services

When PBS awarded the subject CMc contract, planning for the project was ongoing and
design work had not started. Despite this, PBS proceeded with the procurement. As a
result, the scope of work was inadequately defined making it impossible to use price
competition in awarding the Construction Phase Services. Further, when PBS finally
delineated the full scope of work, it modified the contract without competition; nearly
quadrupling the Guaranteed Maximum Price (GMP) for construction. Consequently,

1
  The Young Building is located in St. Louis, Missouri. Envelope physical components for this project
include windows and the exterior façade.
                                                 1
PBS violated the requirements of both the Federal Acquisition Regulation (FAR) and the
Competition in Contracting Act (CICA).

PBS Identified Project’s Guaranteed Maximum Price for Initial Task Order Award

PBS awarded this CMc task order on July 29, 2009. This type of contract generally
requires that the Design Phase Services be awarded at a firm-fixed price and that the
Construction Phase Services be awarded as an option at a GMP. The design
requirements should be developed to a degree of specificity that allows competing
offerors to propose meaningful pricing. In addition, the proposed GMP must be
evaluated along with pricing for design services and established at the initial contract
award to comply with contracting requirements. 2

In this case, a façade study was needed to ascertain the project’s full scope of work, but
had not been completed prior to issuance of the solicitation. Nevertheless, PBS elected
to proceed with the procurement in order to ensure that the $7 million 3 in Recovery Act
funding allocated to the project would be obligated before the August 1, 2009,
deadline. 4 PBS provided a preliminary scope of work to bidders and instructed them to
use the Government’s $7 million GMP (the amount of available project funding) in
pricing the Construction Phase Services when preparing their bids. In addition, PBS
verbally informed potential bidders that the contract value could increase once the full
scope of work was determined.

By instructing prospective bidders to use the PBS-identified GMP for construction, PBS
limited any price competition to preconstruction costs which represented only 0.1
percent ($8,200) of the total $7,008,200 award value. In effect, PBS eliminated cost or
pricing as an evaluation factor for the vast majority of the work. Source selection was
based primarily on technical evaluation factors, with preconstruction costs given
secondary consideration. Additionally, PBS violated FAR restrictions regarding the type
of information that may be disclosed in a solicitation. 5

The contracting officer indicated that this approach was used because it was one of the
pricing options prescribed in the Region 6 CMc Multiple Award contract. Under CMc
Method 3,

        0-99% design documents will be provided to contractors. Contractors will
        submit a firm fixed price proposal for preconstruction phase services and
2
  Federal Acquisition Regulation (FAR) 52.217-5.
3
  Recovery Act funds of $26.322 million were originally allocated for the RAY Building. However, there
were multiple projects within the building and only $7 million were allocated for this work.
4
  To ensure Recovery Act funds were obligated prior to their expiration, PBS established several
obligation deadlines with target dates for project awards.
5
  FAR 36.204 prohibits disclosure of exact pricing data. It states, “advanced notices and solicitations shall
state the magnitude of the requirement in terms of physical characteristics and estimated price range.”
                                                     2
       agree to a GMP option for construction services provided by the
       Government. The GMP will be converted to a Firm Fixed price prior to
       100% design complete.

However, subsequent to this task order award, PBS Central Office disallowed the use of
this method as a procurement option.

Contract Modifications Represented Non-Competitive Unpriced Options

PBS awarded the contract knowing the scope of the Construction Phase would be
increased and that this additional work would have to be given to the existing contractor.
Since PBS had not fully defined the additional work or formally amended the
requirement, its verbal notification that the contract value could increase constructively
established an unpriced option for this work. PBS exercised this option after a
consultant for the project’s Architect-Engineer performed the façade study and
determined the complete scope of work, which was estimated to cost $26.3 million.
Pursuant to the study’s results, PBS issued two task order modifications 6 that increased
the quantity of work and the GMP. The GMP went from $7 million to $26.3 million; an
increase of $19.3 million or 376 percent.

This further violated FAR and CICA because the option was not evaluated as part of the
initial competition and could not be executed at an amount specified in or reasonably
determinable from the terms of the base contract. 7

In effect, the option was awarded as a sole source procurement. Both FAR 8 and the
General Services Acquisition Manual9 require that the statutory authority permitting the
use of other than full and open competition be cited when exercising an unpriced option.
At the time of our review, the contract file did not contain any documentation citing this
authority, and the circumstances do not appear to adequately support such a
determination.

Price Reasonableness Determinations Were Inadequate

PBS did not make an adequate determination of price reasonableness regarding this
task order. The contracting officer did prepare a determination for the initial award
based on the bids received and a comparison to a government estimate. However, as
noted above, there was no actual price competition for the majority of the work, and the
independent government estimate (IGE) was not prepared in accordance with PBS
estimating requirements. Finally, the contract modifications were not competed nor
were IGEs prepared for them.

6
  Modification PS03 dated December 30, 2009, for $9,040,856; and Modification PS05 dated March 17,
2010, for $10,266,403.
7
  FAR 17.207(f)
8
  FAR 6.302
9
  General Services Acquisition Manual 536.270
                                                3
In general, price reasonableness for construction contracts can be established through
price competition and/or through a cost comparison using the IGE. According to FAR
36.203 10, the Government is required to prepare the IGE in as much detail as though
the Government were competing for award. However, since the initial scope of work
was incomplete, the IGE could not meet this criterion. PBS was not fully aware of the
extent of the work required until the façade study was completed four months after task
order award. Further, since PBS instructed all bidders to use a GMP of $7 million in
their proposals, price competition was not used to establish price reasonableness.

PBS also failed to establish price reasonableness for the modifications that increased
the GMP after the initial task order award. PBS did not prepare an IGE for this work;
instead, a consultant for the Architect-Engineer firm who performed the façade study
prepared the estimates. This violates P-120 Project Estimating Requirements for the
Public Building Service that requires that government estimates be completed by an
internal government estimator or an independent cost estimator who is not affiliated with
the design or the CMc firm. Further, since PBS did not recompete the order or
renegotiate with the winning contractor, there is little assurance that agreed-upon prices
are fair and reasonable.

PBS Inappropriately Increased the Underlying CMc IDIQ Contract Maximum Order
Limitation

The contracting officer awarded the RAY CMc task order under an Indefinite Delivery
Indefinite Quantity (IDIQ) contract that did not have sufficient capacity within its
maximum order limitation (MOL) to cover the full project cost. While the MOL could
have covered the initial $7 million award, it was insufficient to cover the increases that
were a result of the re-defined project scope. The contracting officer should have taken
this into account and considered other contractors under this IDIQ contract or
alternative procurement vehicles. Instead, PBS opted to issue modifications to increase
the contract’s MOL from $40 million to $72 million.

PBS awarded the initial task order on July 29, 2009. By August 2009, the IDIQ contract
had reached 94 percent of its $40 million MOL. This meant there was insufficient
capacity to complete the façade improvements. Therefore, on September 3, 2009, PBS
increased the MOL to $50 million via modification PC10. On December 29, 2009,
barely half way through its 5-year performance period, total task order awards under
this IDIQ contract approached this revised order limit. PBS then issued modification
PS11 increasing the MOL by an additional $22 million.

These modifications were processed in a manner that ignored PBS’s guidance
regarding MOL increases. In a July 21, 2009, memorandum to PBS Regional
Procurement Officers, the Deputy Assistant Commissioner for the Office of Acquisition
Management indicated that unused capacity from a prior year may be used to increase

10
     Government estimate of construction costs.
                                                  4
a MOL if supported by a written determination.         In this case, PBS made no such
determination.

PBS did prepare justifications for the use of other than full and open competition for
each MOL increase. These justifications, approved by regional management, cited the
Recovery Act as creating an urgent and compelling need to augment the MOL.
However, Recovery Act Implementation Guidance issued by the Office of Management
and Budget 11 explicitly states that the Recovery Act does not constitute a sufficient
justification to support award of federal contracts on a non-competitive basis, and that
agencies are expected to follow the same laws, principles, procedures, and practices in
awarding non-competitive contracts with Recovery Act funds as they do when using
other funding sources.

PBS Improperly Obligated Funds for Construction Phase Services

PBS improperly obligated funding for Option 1 Construction Phase Services when it
awarded the initial CMc task order. The task order only established the GMP and did
not actually exercise the construction phase option or create a liability for these
services. Therefore, an obligation did not occur and should not have been recorded.

The Government Accountability Office defines an obligation as “a definite commitment
that creates a legal liability for the government for the payment of goods and services
ordered or received.” On a CMc contract, this usually occurs when the base contract is
awarded and when the construction option is exercised. In this instance, the option was
eventually exercised via a series of subsequent modifications. However, PBS
prematurely obligated construction funding at the initial task order award in order to
meet GSA’s Recovery Act obligation deadlines.

Conclusion

PBS’s procurement methodology for this CMc contract may have unnecessarily put the
project at risk. The base task order was awarded without a fully-developed scope of
work and without price competition for the Construction Phase Services that
represented an overwhelming majority of the contract value. Additionally, subsequent
modifications which substantially increased the scope were awarded non-competitively
as an unpriced option. Further, to accommodate the increase in scope, PBS ignored its
own procurement guidance and inappropriately increased the MOL of the underlying
IDIQ contract. These actions expose GSA to potential challenges from third parties and
unsuccessful bidders.




11
  Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 dated
February 18, 2009.
                                             5
Recommendations

We recommend that the Commissioner of the Public Buildings Service:

   1. Review the Region 6 Multiple Award CMc IDIQ contract to determine whether it
      should be modified or terminated, as its provisions include contract clauses that
      violate requirements of the Competition in Contracting Act and the Federal
      Acquisition Regulation;

   2. Take measures to ensure that PBS contracting personnel follow existing
      procurement regulations and guidance to establish reasonable pricing for
      Recovery Act modernization and construction projects; and

   3. Ensure that project teams have proper guidance and training to properly obligate
      funding for future construction contract actions.

Management Comments

In its response to the draft report, PBS concurred with the OIG findings and accepted
the report recommendations. PBS’s response is included in its entirety as Attachment A
to this report.


We appreciate the support that has been provided throughout this audit. If you have any
questions concerning this report, please contact me at (202) 219-0088.


Sincerely,




R. Nicholas Goco
Deputy Assistant Inspector General for Auditing
Real Property Audit Office (JA-R)




                                          6
                           Recovery Act Report –
Robert A. Young Federal Building Envelope Improvement Construction Project
            Audit of PBS’s Major Construction and Modernization
              Projects Funded by the American Recovery and
                          Reinvestment Act of 2009
                      Report Number A090172/P/R/12003

                         Management Comments




                                   A-1
A-2
                            Recovery Act Report –
 Robert A. Young Federal Building Envelope Improvement Construction Project
             Audit of PBS’s Major Construction and Modernization
         Projects Funded by the American Recovery and Reinvestment
                                  Act of 2009
                       Report Number A090172/P/R/12003

                  Background, Objective, Scope and Methodology


Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the
General Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service (PBS) issued
these funds to convert federal buildings into High-Performance Green Buildings as well
as to construct federal buildings, courthouses, and land ports of entry. The Recovery
Act mandated that $5 billion of the funds be obligated by September 30, 2010, and that
the remaining funds be obligated by September 30, 2011. The GSA Office of Inspector
General (OIG) is conducting oversight of the projects funded by the Recovery Act.

On July 29, 2009, PBS awarded a Construction Manager as Constructor task order for
envelope improvements to the Robert A. Young Federal Building (RAY) in St. Louis,
Missouri. The base task order was awarded for $8,200 for preconstruction services,
with an option for construction phase services at a Guaranteed Maximum Price (GMP)
of $7 million. PBS subsequently increased the project’s GMP to $26.3 million. The
envelope improvements were scheduled to be completed by the end of 2011.
Objective

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning,
awarding, and administering contracts for major construction and modernization
projects in accordance with prescribed criteria and Recovery Act mandates.

Scope and Methodology

To accomplish the objective we conducted fieldwork in the Heartland Region, reviewed
the task order file and other pertinent project documents, met with project staff, and
reviewed applicable guidance and regulations. The work for this report was performed
while evaluating the award for Option 1 of the construction task order for the Robert A.
Young Federal Building Envelope Improvement Project.

Except as noted below, we conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We

                                          B-1
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act
projects as well as review guidance being applied to all Recovery Act projects. A
separate guide was not prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment. Only those
management controls discussed in the report have been assessed.




                                          B-2
                            Recovery Act Report –
 Robert A. Young Federal Building Envelope Improvement Construction Project
             Audit of PBS’s Major Construction and Modernization
               Projects Funded by the American Recovery and
                           Reinvestment Act of 2009
                       Report Number A090172/P/R/12003

                                    Report Distribution


Commissioner, Public Buildings Service (P)
Deputy Commissioner, Public Buildings Service (PD)
PBS Chief of Staff (PB)
Regional Recovery Executive (6PC)
National Program Office ARRA Executive (PCB)
Chief of Staff, PBS office of Construction Programs (PCB)
Regional Administrator (6A)
Regional Commissioner, Public Buildings Service (6P)
Regional Counsel (6L)
Division Director, GAO/IG Audit Response Division (H1C)
Audit Liaison (PFF)
Assistant Inspector General for Auditing (JA)
Director, Audit Planning, Policy and Operations Staff (JAO)
Deputy Assistant Inspector General for Investigations (JID)
Director, Office of Internal Operations (JI-I)
Investigator, Office of Internal Operations (JI-I)




                                             C-1
